                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A10120090                                                                       Page 1 of 1



                 Our investigation determined that the Subject1 knowingly plagiarized in proposals
         submitted to NSF. NSF made a finding of research misconduct by the Subject; sent a letter of
         reprimand to the Subject; required the Subject to submit certifications to the Assistant Inspector
         General for Investigations (AlGI), NSF OIG for three years; required the Subject's employer to
         submit assurances to the AlGI of NSF OIG for three years; prohibited the Subject from serving
         as a reviewer of NSF proposals for three years; and required the Subject to provide certification
         to the AlGI that he has completed a course on the responsible conduct of research.

                 This memo, the attached Report of Investigation, and the letter from NSF with a finding
         of research misconduct constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
     National Science Foundation
       Office of Inspector General




                Report of Investigation
               Case Number A10120090
                               28 June 2012

                This Confidential Report of Investigation is provided to you
                                 FOR OFFICIAL USE ONLY.
It contains protected personal information, the unauthorized disclosure of which may result in
personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
disclosed within NSF only to individuals who must have knowledge of its contents to
facilitate NSF's assessment and resolution of this matter. This report may be disclosed
outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
552a. Please take appropriate precautions handling this confidential report of investigation.
CONFIDENTIAL                                                                      CONFIDENTIAL


                                     Executive Summary

OIG's inquiry established that:

   •   copied text appeared in four of the Subject's NSF proposals.

University's investigation concluded that:

   •   the Subject plagiarized text into four NSF proposals;
   •   the Subject's actions were a significant departure from the standards of the research
       community; and,
   •   the Subject's actions constitute research misconduct.

OIG concludes that:

   •   Act: The Subject plagiarized approximately 496 lines of text into four proposals
       submitted to NSF.
   •   Intent: The Subject acted recklessly.
   •   Standard of Proof: A preponderance of the evidence supports the conclusion that the
       Subject's acts were a significant departure from accepted practices, and therefore
       constitute research misconduct.
   •   Pattern: The Subject's actions are part of a pattern of plagiarism in NSF proposals.

OIG recommends that NSF:

       •   Send the Subject a letter of reprimand notifying him that NSF has made a finding of
           research misconduct.
       •   Require the Subject to certify to the Assistant Inspector General for Investigations
           (AlGI) his completion of a responsible conduct of research training program and
           provide documentation of the program's content within 1 year ofNSF's finding. The
           instruction should be in an interactive format (e.g., an instructor-led course) and
           specifically include plagiarism and proper citation practices.

For a period of 3 years from the date ofNSF's finding:
       • Require for each document (proposal, report, etc.) to which the Subject contributes
           for submission to NSF (directly or through his institution),
               o the Subject to submit a certification to the AlGI that the document does not
                   contain plagiarism, falsification, or fabrication.
               o the Subject to submit assurances from a responsible official of his employer to
                   the AlGI that the document does not contain plagiarism, falsification, or
                   fabrication.
        • Bar the Subject from participating as a peer reviewer, advisor, or consultant for NSF.




                                                2
CONFIDENTIAL                                                                                         CONFIDENTIAL



                                                        OIG's Inquiry

       We assessed an allegation that four ofthe Subject's 1 NSF proposals 2 contained copied
text. Our review of these proposals revealed approximately 496 unique lines of text apparently
copied from 17 sources. The table below identifies the approximate extent ofthe copied text in
the seven proposals:


                          Proposal          Number of Copied             Sources
                                                Lines
                              A                    72                        6
                              B                   104                        3
                              c                  (72)j                      (6)
                             D                    320                        8
                            Total                 496                       17

        We wrote the Subject to invite his explanation. 4 In his reply, 5 the Subject admitted that
he had copied most of the material from the indicated sources, stating that he used the sources
because English is not his native language. He asserted also that citations were not necessary
because the text was copied from a public source, or was public knowledge. However, the
Subject did not address the absence of quotation marks or other distinguishing features
differentiating the copied text from his own. The Subject's response did not dispel the
allegation, and we referred an investigation to the Subject's University. 6

                                                    University's Inquiry

       Pursuant to its policy, 7 the University began an in~uiry, and arranged for a faculty
member external to the University to conduct the inquiry. The inquiry considered the four
annotated proposals and apparent sources provided in our referral letter, reviewed the Subject's
response to our inquiry letter, interviewed the Subject and his coPis, and examined some of the
Subject's publications for copied text. In his interview, the Subject stated that he alone was




                                  were "'-''-'lU"•"
          uuu.uLL<;u   proposal contains the same copied text as an earlier submission. The 72 lines are only counted
once.
4
  Our inquiry letter to the Subject is at Tab 1.
5
  ~Tab2.
6
  - - - - · The referral of investigation letter is at Tab 3.
7
  University policy is at Tab 4. The policy suggests that an inquiry committee consists of several individuals and a
chair. The          · instead                    individual to          the inquiry.
8




                                                             3
CONFIDENTIAL                                                                                         CONFIDENTIAL



responsible for the copied sections of text, which was corroborated by the coPis. The inquiry
therefore focused only on the Subject.

        We received a copy of the inquiry report, and letters describing subsequent University
actions in this case. 9 The inquiry report states that the Subject admitted copying the annotated
                                                                                   °
text into his NSF proposals for all but two of the indicated sources. 1 For these remaining two
sources, the Subject admitted that the words were copied, but asserted that he did not copy them
from the sources suggested. 11 The inquiry report concluded that the copied text in the Subject's
proposals constituted plagiarism, and that the Subject's failure to provide citation was a
departure from the accepted practice of the Subject's relevant research community. 12

         The inquiry concluded that the Subject acted recklessly. The Subject asserted in his
interview that he knew that he should cite research publications for copied text, but did not know
at the time that he should cite sources such as Wikipedia. 13 However, the inquiry concluded that
the Subject should have known of the need for citation, and that his actions were therefore
reckless.

        Based on the evidence, the inquiry report concluded, by a preponderance of the evidence,
that the Subject committed plagiarism, that the plagiarism was a departure from accepted
practices of the relevant research community, and that the Subject's actions were reckless. 14 The
inquiry report concluded that the Subject's plagiarism was not part of a pattern extending beyond
the four NSF proposals, basing this conclusion on examination of some of the Subject's
publications. The inquiry concluded "there is no impact at all on the research record" because
the plagiarism "took place in the back?round sections, broader impacts and education, outreach
and training sections of the proposal." 5

        University policy allows termination of the process at the inquiry stage if "a legally
sufficient admission of research misconduct is made" by the Subject. The University determined
that the Subject's admission to the copying was sufficient under this policy. Therefore, no
separate investigation was completed, and the inquiry report was sent first to the Director of the
                                             16
Office of Sponsored Programs and Research, and then to the Provost and Vice President for
                    17
Academic Affairs.

        The University Provost took the following actions against the Subject: 1) place a formal
letter of reprimand in the Subject's permanent record, with an admonition that further plagiarism
may result in termination of his employment; 2) require that for the next two years the Subject

9
   Materials received from the University are at Tab 5.
10
   Inquiry report, page 2 (Tab 5).
11
   Inquiry report, page 2 (Tab 5). The Subject did not identify the sources used.
12
   The inquiry report refers to six copied figures in Proposal D. These six figures                              that
appear to have been            into the                    from the source websites along                         text.
However,
13
   The inquny                                                            copy the content if citation is provided.
14
   Inquiry report, page 2 (Tab 5).
15     •
16
17




                                                           4
CONFIDENTIAL                                                                                         CONFIDENTIAL


certify that proposals submitted contain no plagiarism; 3) require an assurance from the Director
of the Office of Sponsored Programs and Research that proposals submitted within the next two
years do not contain plagiarism; and 4) require that the Subject enroll in a course on research
ethics within 180 days, and provide documentation that he has completed it. 18

                                                 OIG's Assessment

        We wrote to the Subject to invite comment on the University inquiry report, but received
no response. We concluded that the inquiry report was fundamentally accurate and complete,
and that the University followed reasonable procedures.

       A finding of research misconduct by NSF requires that 1) there be a significant departure
from accepted practices of the relevant research community, that 2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that 3) the allegation be proved by a
preponderance ofthe evidence. 19



        The Subject's copying of text encompassed approximately 496 lines of copied text in
four NSF proposals. The NSF Grant Proposal Guide states: "NSF expects strict adherence to the
rules of proper scholarship and attribution. The responsibility for proper attribution and citation
rests with authors of a proposal; all parts of the proposal should be prepared with equal care for
               20
this concem." Although the Subject asserts that he did not realize at the time that he should
have provided citations, we conclude that the Subject, as a faculty member and as an individual
with postdoctoral research experience within a major U.S. university system, 21 should reasonably
have been aware of such a requirement. We concur with the University that in failing to ensure
adequate attribution to words written by others, the Subject committed plagiarism, and his
actions significantly departed from accepted standards of the research community.        ·



       The inquiry characterized the Subject's actions as reckless, sufficient for a finding of
research misconduct, and we concur. The Subject has not taken training in the responsible
conduct of research through his University. 22 Based on the Subject's background and
experience, he should have known that the text he copied required citation and differentiation
from original composition.




18
     University Provost adjudication letter (Tab 5).
19
     45 C.P.R. §689.2(c).
20
     NSF Grant Proposal Guide, Chapter I, Section D.3.
21
     The      ect                             doctoral research associate at

serves on
22
   The inquiry report suggests that training is offered at the University; see Inquiry report, page 5 (Tab 5).


                                                            5
CONFIDENTIAL                                                                        CONFIDENTIAL



                                         Standard o{Proo{

        We concur with the University that the preponderance of the evidence proves that the
Subject failed to provide adequate attribution for text copied into his NSF proposals, and that
these actions constitute reckless plagiarism. Because these actions represent a significant
departure from accepted practices, we conclude that the Subject's plagiarism constitutes research
misconduct.

                                 OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider: (1) how serious the misconduct was; (2) the degree to which the misconduct was
knowing, intentional, or reckless; (3) whether it was an isolated event or part of a pattern;
(4) whether it had a significant impact on the research record, research subjects, other
researchers, institutions or the public welfare; and (5) other relevant circumstances. 23

                                             Seriousness

         The Subject copied approximately 496 lines of text into four NSF proposals. In so doing,
the Subject presented text to NSF proposal reviewers as his own. The inquiry report attempts to
mitigate the seriousness of the plagiarism by noting that the text is confined to the background
sections of the proposal and "broader impacts" descriptions. However, background sections of
the proposal are considered equally with other sections by proposal reviewers and NSF staff in
assessing the PI's understanding and perspective of the field in which research is proposed.
Because the "broader impacts" section of the proposal responds to a specific criterion for merit
review, plagiarism in this section cannot be discounted. The extent of plagiarism by the Subject
in this case far exceeds the level for which NSF has made previous findings of research
misconduct, and has put in place requirements for certifications and assurances.

                                    Degree to which the Act was Reckless

        The Subject described his preparation of NSF proposals: "Because of language
constraints, I read lots of related materials from different sources to choose the best statements
when I wrote these proposals. If finding some descriptions are appropriate for my proposal, I just
took a note on my notebook. With the time ,roing, I might forget where the statements come
from and simply move it to my proposals." 2 As evident in this case, such a practice leads to the
absence of quotation marks, omitted citations, and missing references. The Subject's University
provides assistance with proposal preparation, including the services of a grants writer; 25 the
Subject did not use these resources.

          The Subject's admitted actions in preparing his NSF proposals are clearly reckless.



23
     45 C.F.R. § 689.3(b).
24
25




                                                  6
CONFIDENTIAL                                                                          CONFIDENTIAL


                                                       Pattern

        The Subject's recurrent plagiarism in four NSF proposals submitted over a period of 2
years is clear and compelling evidence for a pattern of behavior by the Subject.

                                             Impact on the Research Record

        All ofthe Subject's NSF proposals were declined; the impact of the Subject's plagiarism
on the research record is therefore limited to activities related to NSF merit review of those
proposals.

                           Subject's comments on the draft Report of Investigation

       We provided a draft copy ofthis report of investigation to the Subject for comments. We
received no comments.

                                               Recommendations

        We recommend that NSF:

         •   Send the Subject a letter of reprimand notifying his that NSF has made a finding of
             research misconduct. 26
         •   Require the Subject to certify to the Assistant Inspector General for Investigations
             (AlGI) his completion of a responsible conduct of research training program and
             provide documentation of the program's content within 1 year ofNSF's finding. 27
             The instruction should be in an interactive format (e.g., an instructor-led course) and
             specifically include plagiarism and proper citation practices.

For a period of3 years as of the date ofNSF's finding:
       • Require for each document (proposal, report, etc.) to which the Subject contributes
           for submission to NSF (directly or through his institution),
               o the Subject to submit a certification to the AlGI that the document does not
                   contain plagiarism, falsification, or fabrication. 28
               o the Subject to submit assurances from a responsible official of his employer to
                   the AlGI that the document does not contain plagiarism, falsification, or
                   fabrication. 29
        • Bar the Subject from participating as a peer reviewer, advisor, or consultant for
           NSF. 30

        Subject's certifications, assurances, and certificate of attendance should be sent to the
     Assistant Inspector General for Investigations for retention in OIG's confidential file.

26
   A Group I action 45 C.P.R. 689.3(a)(l)(i).
27
   This action is similar to Group I actions 45 C.P.R. 689.3(a)(l).
28
   This action is similar to 45 C.P.R. 689.3(a)(l)(iii).
29
   A Group I action 45 C.P.R. 689.3(a)(l)(iii).
30
   A Group III action 45 C.P.R. 689.3(a)(3)(ii).


                                                           7
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230



                                         NOV 1 3 201t

      OFFICE OF THE
    DEPUTY DIRECTOR




 CERTIFIED MAIL -RETURN RECEIPT REQUESTED




        Re:      Notice of Research Misconduct Determination


Dear-
       From 2009-2010, you served as a Principal Investigator ("PI") on four proposals
submitted for funding to the National Science Foundation ("NSF'' or the "Foundation"). As
documented in the attached Investigative Report prepared by NSF's Office of Inspector General
("OIG"), these proposals contained plagiarized material.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ... '' 45 CFR § 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
requires that:

        (1) There be a significant departure from accepted practices of the relevant research
            community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CPR§ 689.2(c).

        Your proposals contained approximately 496 unique lines of text copied from 17 source
documents for which you were responsible. By submitting proposals to NSF that copied the
ideas or words of another without adequate attribution, as described in the OIG Investigative
Report, you misrepresented someone else's work as your own. Your conduct unquestionably
constitutes plagiarism. I therefore conclude that your actions meet the definition of "research
misconduct" set forth in NSF's regulations.
                                                                                               Page 2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities frotn NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension fi:om participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was part of a pattern, and that it
had a minimal impact on the research record. In addition, I have considered other relevant
circumstances. 45 CFR § 689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until November 1, 2015, you must provide certifications to the OIG that any proposal
           or report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material;

       (2) Until November 1, 2015, you must obtain, and provide to the OIG, assurances from a
           responsible official of your employer that any proposal or report you submit to NSF as
           a PI or co-PI does not contain plagiarized, falsified, or fabricated material;

       (3) By November 1, 2013, you must complete a comprehensive responsible conduct of
           research training course, and provide documentation of the program's content to the
           OIG. The instruction should be in an interactive format (e.g., an instructor-led
           course) and should specifically include a discussion on plagiarism and citation
           practices; and

       (4) Until November 1, 2015, you are prohibited from serving as a reviewer, advisor, or
           consultant for NSF.
                                                                                            Page 3
       The certifications, assurances, and training documentation should be submitted in writing
to NSF's OIG, Associate Inspector General for Inves6gations, 4201 Wilson Boulevard,
Arlington, Virginia 22230.


Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CPR§ 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this ·
decision will become final.

       For your infonnation, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call            , Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                    Cora B. Marrett
                                                    Deputy Director



Enclosures
- Investigative Report
- 45 C.F.R. Part 689
